     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




    USAID’s Kabul Community Development Program
    Largely Met the Agreement’s Terms, But Progress
   Toward Long-Term Goals Needs to be Better Tracked




                                         June 29, 2011



SIGAR Audit-11-11 Cooperative Agreement Oversight & Performance / Development
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


June 29, 2011

The Honorable Rajiv Shah
Administrator, U.S. Agency for International Development
Dr. S. Ken Yamashita
USAID Mission Director for Afghanistan



This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of a cooperative agreement between the U.S. Agency for International
Development (USAID) and CARE International to provide food assistance relief using cash-for-work
opportunities to qualified beneficiaries through the Community Development Program-Kabul (CDP-K).
This report includes four recommendations to the USAID Mission Director to Afghanistan to help track
progress toward long-term program goals, potentially recoup certain expenses from CARE, and address
certain procedural deficiencies with regards to CARE’s internal controls over cash disbursements.

A summary of this report is on page ii. SIGAR conducted this performance audit under the authority of
Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector General
Reform Act of 2008. When preparing the final report, we considered comments from USAID which are
reproduced in appendix III of this report. USAID concurred with our recommendations and noted a
range of actions they plan to take.




Herbert Richardson
Acting Special Inspector General
  for Afghanistan Reconstruction




SIGAR Audit-11-11 Cooperative Agreement Oversight & Performance / Development                    Page i
                                                           SIGAR Audit-11-11                                          June 2011


                SIGAR
Special Inspector General for Afghanistan Reconstruction
                                                           USAID’s Kabul Community Development Program Largely
                                                           Met the Agreement’s Terms, But Progress Toward Long-
                                                                   Term Goals Needs to be Better Tracked

What SIGAR Reviewed
Due to concerns about the possibility of riots over food shortages, the U.S. Agency for International Development
(USAID) awarded a cooperative agreement to CARE International in March 2009 to provide cash-for-work to qualified
beneficiaries in the Kabul area through a number of small scale projects. The first phase of the Community
Development Program-Kabul (CDP-K) was scheduled to last until March 2010, reach a target beneficiary population of
50,000, and cost a total of $25 million. USAID modified the cooperative agreement in March 2010 to extend the
performance for a second phase until September 2011, expand the number of target beneficiaries to 78,000, and
increase total funding to $60 million. USAID also expanded the program’s goals to, in part, fund long-term projects
aimed at improving living and working conditions for target communities. This report assesses (1) the processes and
procedures USAID followed to award this cooperative agreement; (2) whether it is being implemented within the cost,
schedule, and outcome terms of the agreement; and (3) the implementation of internal controls over cash
disbursements. To accomplish these objectives, we reviewed the cooperative agreement, associated implementation
and monitoring documents, and internal controls documentation relating to the cash disbursement process. We
interviewed officials from USAID, USAID’s third-party oversight support contractor and CARE. We also visited two
project sites to observe the cash distribution process and reviewed related project files covering a 3-month
performance period. We conducted our work in Kabul, Afghanistan, from August 2010 to May 2011, in accordance with
generally accepted government auditing standards.

What SIGAR Found
USAID followed agency procedures in its decision to award a cooperative agreement on a non-competitive basis to
implement CDP-K. USAID sought to mitigate the risks of fraud, waste, and abuse that are inherent in cash-for-work
projects, by providing additional oversights of the projects required for cooperative agreements. SIGAR’s analysis
indicates that USAID followed its procedures in using a cooperative agreement, rather than a grant. In addition, USAID
adhered to requirements in documenting the award and expansion of the program on a non-competitive basis.
CARE largely complied with the schedule, cost, and outcome terms under the first phase of the cooperative agreement
and appears to be on track to meet the terms established for the second phase. However, CARE failed to complete
certain required studies, such as the impact the program had on food prices in the market, under both phases of the
agreement. These studies could have provided additional insights to guide project implementation and assess the
project’s impact. CARE largely met key numerical performance goals for the agreement under both phases. However,
USAID failed to incorporate other program goals such as creating projects with long-term economic impact into phase
two of the agreement when it had become clear to both USAID and CARE officials that a shift in program focus had
occurred. As a result, there has been no reporting on the program’s success in achieving these long-term goals. The
lack of formal agreement on such long-term goals increases the risk that project activities will not have the intended
impact beyond just the distribution of cash to target beneficiaries.
CARE’s cash disbursement process provides numerous checks and balances designed to prevent inappropriate
disbursements. For example, all cash disbursement are overseen by a committee of four and workers only receive
payment after showing a CARE-created photo identification. In addition, CARE established a 40 -person unit to visit
work sites to monitor the implementation of its internal controls process. USAID also contracted with A.F. Ferguson to
provide third party monitoring and evaluation services, including assessments of the cash disbursement process. This
company found that although CARE has a reasonable assurance that project funds are only distributed to eligible
beneficiaries, CARE needs to improve its internal controls over the cash disbursement process to address limited
irregularities.
What SIGAR Recommends
To ensure that the program’s broader objectives are achieved and appropriate oversight of program funds is provided,
this report includes four recommendations to the USAID Mission Director to Afghanistan relating to the need to track
progress toward long-term program goals, recoup certain program expenses, and address certain procedural
deficiencies with regards to CARE’s internal controls over cash disbursements. USAID concurred with SIGAR’s
recommendations and noted a range of actions they plan to take.

                    For more information contact: SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil



SIGAR Audit-11-11 Cooperative Agreement Oversight & Performance / Development                                              Page ii
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
USAID Followed Procedures in Selection and Award of Non-Competitive
   Cooperative Agreement for CDP-K ......................................................................................................... 5
Requirements for CDP-K’s First and Second Phases Were Largely Met, But
   Progress Toward Long-Term Goals in Second Phase Is Unclear............................................................. 6
CDP-K is Subject to Multiple Layers of Monitoring and Evaluation; Some
   Irregularities Were Noted in the Cash Disbursement Process ............................................................. 12
Conclusion ................................................................................................................................................... 15
Recommendations ...................................................................................................................................... 16
Comments ................................................................................................................................................... 16
Appendix I: Scope and Methodology ......................................................................................................... 17
Appendix II: Project Results through the End of Phase One and Phase Two ............................................ 18
Appendix III: Comments From the U.S. Agency for International Development........................................ 19


TABLES

Table 1: Base Award and Modifications to USAID Cooperative Agreement No:
    A-00-09-00510 ........................................................................................................................................ 4
Table 2: Phase One Results for CDP-K Program (March 15, 2009 to March 15,
    2010)....................................................................................................................................................... 7
Table 3: Phase Two Results for CDP-K Program (March 15, 2009 thru March 15,
    2011)..................................................................................................................................................... 10
Table I: CARE Reported Results by Project Category for Phase One (March 15,
    2009 to March 15, 2010) ...................................................................................................................... 18
Table II: CARE Reported Results by Project Category for Phase Two (March 16,
    2010 to March 15, 2011) ...................................................................................................................... 18


FIGURES AND PHOTOS

Photo 1: Canal Cleaning in Mibarchakot District, Kabul ............................................................................... 2
Photo 2: Big Canal Construction after Completion in Kabul Municipality .................................................... 3
Figure 1: CDP-K Internal Control Cycle....................................................................................................... 13




SIGAR Audit-11-11 Cooperative Agreement Oversight & Performance / Development                                                                          Page iii
ACRONYMS

ADS         Automated Directives System
AO          Agreement Officer
AOTR        Agreement Officer’s Technical Representative
CARE        CARE International
CDP-K       Community Development Program-Kabul
SIGAR       Special Inspector General for Afghanistan Reconstruction
USAID       U.S. Agency for International Development




SIGAR Audit-11-11 Cooperative Agreement Oversight & Performance / Development   Page iv
    USAID’s Kabul Community Development Program Largely Met the Agreement’s
      Terms, But Progress Toward Long-Term Goals Needs to be Better Tracked


In March 2009, the U.S. Agency for International Development (USAID) initiated a cash-for-work
program—the Community Development Program-Kabul (CDP-K)—to help alleviate food insecurity
among distressed populations in and around Kabul. 1 USAID awarded a non-competitive cooperative
agreement to CARE International (CARE) that was initially scheduled to run from March 2009 to March
2010 (phase one of the project). 2 In March 2010, USAID modified the cooperative agreement (phase two
of the project) to extend the performance period to September 2011 and increase funding from
$25 million to $60 million. According to USAID, it extended and modified the project for two reasons.
First, the U.S. government had continuing concerns about potential political instability resulting from
food insecurity. Second, USAID sought to fund cash-for-work projects that would better serve U.S.
strategic goals by having a sustainable impact on the local economy.

It is estimated that just over $20 million will be paid out as salaries to cash-for-work beneficiaries by the
end of the second phase of the agreement. 3 We conducted this audit, in part, due to the high-risk nature
of cash-for-work programs if appropriate controls to deter fraud, waste, and abuse are not in place. A
recent management letter from the USAID Office of the Inspector General to the Mission Director in
Kabul highlights the increased risk associated with cash disbursements. 4

This report assesses (1) the processes and procedures USAID followed to award this cooperative
agreement; (2) whether it was being implemented within the schedule, cost, and outcome terms of the
agreement; and (3) the implementation of internal controls over cash disbursements.

To accomplish these objectives, we reviewed the cooperative agreement, associated implementation
and monitoring documents, and internal controls documentation relating to the cash disbursement
process. We also visited two project sites to observe the cash distribution and monitoring process and
reviewed related district project files covering a 3-month performance period. We interviewed officials
from USAID, CARE, and A.F. Ferguson--a contractor hired by USAID to provide additional program


1
 Originally titled the Food Insecurity Response for Urban Populations-Kabul (FIRUP-K) program, the program’s title
was later changed to Community Development Program-Kabul (CDP-K) at the U.S. Ambassador’s direction to
reflect the program’s expanded focus under phase two of the program’s implementation.
2
 For purposes of this report, we refer to the initial award period as “phase one” and to the extended award period
as “phase two.”
3
 Under both the original cooperative agreement and the phase two modification, USAID stipulated that CARE
must spend approximately 68 and 63 percent, respectively, of the budget on “project activities” consisting of
beneficiary’s salaries and the cost of project materials and supplies.
4
 See Review of Cash Disbursement Practices of Selected USAID/Afghanistan Implementing Partners, USAID Office
of the Inspector General Report, No. F-306-11-002-S, March 7, 2011. Risks associated with cash disbursements
were also highlighted in April 2010 Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive
Agriculture (AVIPA) Program conducted by the USAID Office of Inspector General. See Audit of
USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) Program, USAID Office of
the Inspector General, Audit Report No. 5-306-10-008-P, April 20, 2010.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                          Page 1
oversight of all CDP programs in Afghanistan. We conducted our work in Kabul, Afghanistan, from
August 2010 to May 2011, in accordance with generally accepted government auditing standards.


BACKGROUND

CDP-K operates in 16 urban districts and 11 suburban areas around Kabul. Under phase one from March
2009 through March 2010, CARE hired needy Afghan citizens (identified through a consultative process
involving the communities, government authorities, and project staff) to work on small-scale projects
such as ditch drainage construction, road surfacing and gravelling, canal cleaning, and cleaning the Kabul
River. Under phase two of the program-- from March 2010 through September 2011—USAID expanded
the program’s goals to include larger projects aimed at providing an economic benefit to the entire
community. These projects included the construction of permanent culverts to divert flood water that
can cause serious damage to a community’s infrastructure. Phase Two also extended the program
beyond Kabul’s urban districts to suburban areas to help prevent poor workers from migrating to
Kabul’s overcrowded center.

Photos 1 and 2 provide views of two cash-for-work projects in Kabul. Photo 1 illustrates the small-scale
projects funded in phase one of the program. Photo 2 provides an example of the larger, more
sustainable projects in phase two.


Photo 1: Canal Cleaning in Mibarchakot District, Kabul




Source: CARE’s Quarterly Report, September – December 2009




SIGAR Audit-11-11 Contract Audit of Community Development Program                                  Page 2
Photo 2: Big Canal Construction after Completion in
Kabul Municipality




Source: CARE, January, 2011.

As shown in table 1, USAID modified the cooperative agreement five times. Modification 2 provided the
basis for phase two, which increased time, costs, and the target number of beneficiary households (from
50,000 to 78,000). Through March 31, 2011, CARE had disbursed nearly $46 million of the $60 million
authorized for this agreement.




SIGAR Audit-11-11 Contract Audit of Community Development Program                               Page 3
    Table 1: Base Award and Modifications to USAID Cooperative Agreement No: A-00-09-00510

    Modification         Date                    Purpose                         Cost and Schedule Changes
    Base Award           March 8, 2009           Provided funding for the Food   $25,000,000
                                                 Insecurity Response for Urban
                                                 Populations-Kabul program
                                                 (FIRUP-K).a
    Modification 1       March 11, 2009          Revised approval of the         No Change
                                                 recipient’s implementation
                                                 plans.
    Modification 2       March 1, 2010           Expanded the program’s          Increased cost by $35,000,000
                                                 scope.                          ($25,000,000 to $60,000,000).
                                                                                 Extended performance period by
                                                                                 18 months, from March 2010 to
                                                                                 September, 2011. Total number of
                                                                                 expected beneficiary households
                                                                                 increased from 50,000 to 78,000.
    Modification 3       June 5, 2010            Incrementally funded the        No Change
                                                 agreement by $6,000,000 –
                                                 from $25,000,000 to
                                                 $31,000,000.
    Modification 4       August 10, 2010         Incrementally funded the        No Change
                                                 agreement by $20,000,000 -
                                                 $31,000,000 to $51,000,000.
    Modification 5       September 16,           Changed name of program to      No Change
                           2010                  “Community Development
                                                 Program-Kabul.”
    Source: SIGAR analysis of USAID Kabul Mission data.
          a
    Note: Original title of the CDP-K program.

USAID’s Agreement Officer (AO), located in the Office of Acquisitions and Assistance in Embassy Kabul, is
responsible for ensuring that appropriate award procedures, key approvals, and any modifications to
the cooperative agreement are properly implemented. As noted by one of the AO’s for this cooperative
agreement, the AO designates an Agreement Officer’s Technical Representative (AOTR), located in the
relevant program office in Embassy Kabul, to provide on-going contact with the award recipient, review
filed progress and status reports, and inspect project activities. According to one of the cooperative
agreement’s AOTRs, because cash-for-work programs potentially pose an increased risk for fraud, USAID
contracted a third party, A.F. Ferguson to monitor and evaluate program implementation. 5

CARE is responsible for the program’s day-to-day operations and has a dedicated office that manages
and oversees the program. This office includes a chief of party, a deputy chief of party, a program
manager, district supervisors, a field supervisor, and field officers. CARE also established an independent
monitoring and evaluation unit staffed with 40 individuals to monitor implementation of the program’s

5
 In June 2009, USAID contracted with A.F. Ferguson, a Pakistani accounting firm and member firm of
PricewaterhouseCoopers, to conduct a monitoring and evaluation program over the four USAID-funded CDP
programs throughout Afghanistan. The cost-plus-fixed-fee contract was originally scheduled to run from June 2009
to March 2010 at a cost of about $477,000. However, the contract was modified in March 2010, to extend it until
March 2011, and the cost increased to more than $1.5 million.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                             Page 4
internal controls, particularly controls over the cash disbursement process. In total, CARE’s CDP-K staff
has grown to about 370 individuals comprised of largely local Afghan hires.


USAID FOLLOWED PROCEDURES IN SELECTION AND AWARD OF NON-COMPETITIVE
COOPERATIVE AGREEMENT FOR CDP-K

In compliance with agency guidelines and documentation standards, USAID chose to award a
cooperative agreement on a non-competitive basis to implement the CDP-K program. The program’s
purpose falls within the definition of when a cooperative agreement should be used. USAID’s award of
the CDP-K program on a non-competitive basis to CARE International also adhered to U.S. Afghan
mission award criteria and procedures which permit the expedited award of acquisition and assistance
instruments under certain circumstances.

Use of a Cooperative Agreement Was Consistent with Agency Procedures

We found that USAID followed agency procedures in awarding a cooperative agreement--rather than a
contract or grant—to CARE to implement CDP-K. A grant or cooperative agreement is used when the
principal purpose of the transaction is to accomplish a public purpose of support or stimulation, as
authorized by the Foreign Assistance Act of 1961. 6 The statutory requirement for choosing a cooperative
agreement over a grant is that, under a cooperative agreement, “substantial involvement” is expected
between the executive agency and the awardee when carrying out the activity contemplated in the
agreement. USAID regulations require that the AO document the selection of an implementing
instrument with his or her written determination, including the rationale. In a negotiation memorandum
dated March 11, 2009, the AO documented the basis for selecting a cooperative agreement including
the need to be substantially involved in the agreement’s implementation. According to USAID officials,
the agency needed to be substantially involved in the oversight of this cash-for-work program given
inherent concerns about the potential for fraud, waste, and abuse.

USAID Followed Agency Procedures in Selecting Non-Competitive Award

USAID complied with agency requirements to document its decision to award the CDP-K cooperative
agreement on a non-competitive basis. OMB and agency guidance stresses the need to award
acquisition and assistance instruments on a competitive basis unless circumstances dictate the need for
a non-competitive award. Under normal USAID procedures, 7 the mission is required to seek
applications from all eligible and qualified entities, conduct an impartial review and evaluation of all
applications, and make a recommendation to the AO for award.

In 2002, the then USAID Administrator approved a series of waivers to permit the use of non-
competitive award procedures in Afghanistan. 8 According to the policy, USAID may use a non-
competitive award process if the USAID Mission Director agrees that certain emergency conditions exist
that could threaten U.S. strategic interests if not addressed in an expedited fashion. The policy requires

6
    The Foreign Assistance Act of 1961, as amended.
7
 See USAID’s Automated Directives System (ADS), Chapter 303 Grants and Cooperative Agreements to Non-
Governmental Organizations.
8
 On February 15, 2002, USAID’s Administrator approved a blanket waiver that permits the use of expedited
acquisition and assistance procedures for the procurement of goods and services for activities in Afghanistan. This
policy has been subject to annual reviews to determine its continued relevance and the need for any
modifications.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                            Page 5
that USAID document the use of a non-competitive award in the award file. On December 30, 2008,
USAID’s acting program office director requested the acting USAID Mission Director’s approval to use
waiver authority to award the CDP-K cooperative agreement to CARE International on a non-competitive
basis. The memorandum noted that food costs in Afghanistan had increased by as much as 300 percent,
and that this, combined with a lack of income-generating opportunities, could lead to instability in urban
centers. The memo cited the government of Afghanistan’s fear that a humanitarian crisis was imminent,
with more than 1.5 million people at acute risk of malnutrition. According to documentation in the file,
the acting USAID Mission Director approved the use of the non-competitive award on January 4, 2009.

Non-Competitive Extension Adhered to Agency Justification and Documentation
Requirements

Using the Afghan waiver policy, USAID extended and expanded the CDP-K cooperative agreement in
March 2010 on a non-competitive basis. Agency guidance allows non-competitive award extensions if
the benefits exceed the benefits of a competitive process. The extension of a non-competitive award
under normal USAID procedures requires a number of administrative steps. 9 In particular, USAID
regulations require that the agency justify in writing and with specificity why the benefits of continuing
the assistance activity with the same recipient exceeds the benefits of a competitive process favored by
federal law and agency policy. According to USAID officials, this decision potentially eliminated months
in additional clearance reviews. The normal process for non-competitive follow-on awards in excess of
$5 million requires that USAID’s General Counsel or Regional Legal Advisor review all justifications that
support non-competitive procurement. In contrast, the waiver policy in Afghanistan allows up to a
2-year non-competitive extension of an existing cooperative agreement without these additional
administrative steps if conditions prevailing at the outset of the cooperative agreement continue.

On December 21, 2009, USAID’s program staff sought approval from USAID’s Mission Director to extend
the program to September 2011 and increase funding from $25 million to $60 million. Citing a
continuing food crisis in the Kabul area, the memo stated that the program would continue to link
vulnerable population centers at risk of acute food insecurity with income-producing programs that
allow target beneficiaries to purchase food as needed. The memo also states that the extended program
would support some very important urban development programs which would serve to promote local
stability and development objectives. According to documentation in the award file, the USAID Mission
Director approved the extension on December 23, 2009.


REQUIREMENTS FOR CDP-K’S FIRST AND SECOND PHASES WERE LARGELY MET, BUT
PROGRESS TOWARD LONG-TERM GOALS IN SECOND PHASE IS UNCLEAR

CARE largely complied with the schedule, cost, and outcome terms of the cooperative agreement under
phase one and phase two in terms of the program’s top-level numerical goals, which include the target
number of beneficiaries, cash disbursed, and total days worked. USAID failed, however, to incorporate
other phase two program objectives, such as creating projects that would have a long-term economic
impact, even though it had become clear to both USAID and CARE officials that a partial shift in program
focus had occurred. Moreover, USAID officials did not require CARE to adhere to the specific
construction targets described in the cooperative agreement because CARE obtained a better
understanding of community needs during program implementation and expanded the range of funded
projects to adjust to these needs. USAID did, however, coordinate with CARE to ensure that only
approved categories of projects were implemented and the agency hired A.F. Ferguson to provide

9
    See ADS Chapter 303.3.6.6 (Justifications for Exceptions to Competition).
SIGAR Audit-11-11 Contract Audit of Community Development Program                                   Page 6
on-site verification to ensure that projects were completed as intended. Finally, we found that CARE
failed to complete certain required studies under both phase one and two of the agreement.

Key Phase One Results Were Largely Achieved, But Certain Deliverables Were Not Provided

USAID broke the program down into four objectives with associated performance targets and
expectations. 10 These four objectives were (1) provide cash-for-work opportunities, (2) increase
involvement of women in short term income generating activities, (3) improve the understanding of the
causes and effects of food insecurity and the impact of project activities on food prices, and
(4) coordinate and collaborate with stakeholders. 11 The key numerical targets for the cooperative
agreement are listed under the first objective and include (1) number of beneficiaries reached,
(2) amount of cash disbursed, and (3) number of days worked. Given the cash-for-work nature of the
cooperative agreement, USAID officials noted that they focused on CARE’s ability to meet these
numerical goals. USAID officials stated that their other key focus was to ensure that funded projects
were actually completed and used A.F. Ferguson to provide on-site, third-party monitoring to verify that
projects were completed as described in CARE’s quarterly reports to USAID.

For phase one of the cooperative agreement, CARE reported that it largely met its numerical
performance targets under objectives one and two with regards to the number of beneficiaries, amount
of cash disbursed, number of days worked, and number of female beneficiaries. Objectives three and
four were only partially met since CARE failed to complete certain required studies, including a market
analysis of the impact of its projects on food prices, an analysis of gender sensitive programming, and a
stakeholder analysis. Table 2 provides a summary of phase one results.


 Table 2: Phase One Results for CDP-K Program (March 15, 2009 to March 15, 2010)
 Objective                              Goals                                    Reported Results
 Provide CFW opportunities
 Number of beneficiaries                50,035                                   49,207
 Project activity spending (salaries    $16.9 million                            $11.9 million
 and cost of materials)
 Days worked                            1.9 million                              1.4 milion




10
  SIGAR organized the eight performance categories listed in the original cooperative agreement into four related
categories of activities which CARE also uses to provide its quarterly performance results to USAID.
11
  CARE chose to allocate the cooperative agreements’ budget across these four objectives. USAID officials noted,
however, that CARE did this on its own initiative and for internal tracking purposes. USAID officials explained that
they only track CARE’s top-level budget and the line items (such as salaries and project activities) which make up
this budget. CARE must provide USAID with quarterly reports showing total spending figures and must track
internally that spending on any given line item does not fall below or exceed stipulated percentage limits.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                             Page 7
 Objective                             Goals                                 Reported Results
 Project category results              The base cooperative agreement        Appendix II, Table I provides
                                       includes a number of specific goals   details on project results by
                                       broken down by the following          project category through March
                                       project categories:                   15, 2010. At USAID’s request,
                                         • ditch drainage construction,      CARE added eight project
                                         • road surfacing and graveling,     categories (such as a park
                                                                             rehabilitation and digging water
                                         • canal cleaning,                   wells) to the five included in the
                                         • vineyard and orchard              cooperative agreement. USAID
                                             ploughing,                      officials noted that they chose not
                                         • tree planting.                    to update project category
                                       All project categories included       specific performance targets since
                                       targets for days worked, number of    their focus was on the top-level
                                       beneficiaries, and wages disbursed    indicators listed above.
                                       targets. Construction/production
                                       targets were stated in kilometers,
                                       number of hectares, and trees
                                       planted were also specified where
                                       appropriate.
 Increase involvement of woman in short term income generating activities
 Number of beneficiaries who are       11,079                                10,027
 female
 Identify woman beneficiaries for      As stated.                            No measureable goals set.
 inclusion in cash for work
 opportunities.
 Identify gender sensitive tasks for   As stated.                            No measureable goals set.
 woman beneficiaries.
 Ensure involvement of woman in        As stated.                            No measureable goals set.
 decision making processes on
 projects.
 Conduct an analysis for gender        As stated.                            Assessment not conducted
 sensistive programming
 Improve the understanding of the causes and effects of food insecurity and impact of project activities on
 food prices.
 Conduct assesment to verify the       As stated.                            CARE conducted Consumption
 appropriateness of proposed cash                                            Strategy Index studies in
 for work interventions                                                      September 2009 and February
                                                                             2010. The Consumption Strategy
                                                                             Index, developed by CARE and the
                                                                             World Food Program, measures
                                                                             household-level changes in
                                                                             response to food shortages.
 Conduct market analysis to            As stated.                            Assessment not conducted
 understand the impact of project
 intervention on food prices in the
 market




SIGAR Audit-11-11 Contract Audit of Community Development Program                                         Page 8
 Objective                               Goals                                    Reported Results
 Coordinate and collaborate with stakeholders.
 Conduct a stakeholder analysis          The project will conduct a rapid         Stakeholder analysis not
                                         stakeholder analysis at the start of     conducted.
                                         the project to ensure agreement on
                                         planned initiatives.
 Involve Kabul Municipality,             Develop memorandums of                   Memorandums of understanding
 Mininistry of Agriculature, and         understanding with target ministries     signed with the Kabul
 Ministry of Woman’s Affairs             to guide coordination and                Municipality, Ministry of
                                         collaboration terms and                  Agricultur, Irrigation, and Land;
                                         mechanisms.                              and the Ministry of Woman’s
                                                                                  Affairs.
                                                                   th
 Source: March 7, 2009 cooperative agreement with CARE and CARE’s 4 quarterly & end of year 1 report to USAID
 (March 15, 2009-March 15, 2010).



Phase Two Results Did Not Include Reported Progress Toward Longer-Term Goals

For phase two of the cooperative agreement, CARE reported that it is on track to meet its September
15, 2011 end-of-agreement numerical targets with regards to number of beneficiaries, amount of cash
disbursed, and number of days worked. We found that CARE and USAID failed to conduct a market
analysis of the impact of its projects on food prices under objective three and failed to include
performance goals relating to a shift in program focus towards building longer-term, sustainable
projects with greater economic impact. Table 3 provides a summary of phase two results.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                               Page 9
 Table 3: Phase Two Results for CDP-K Program (March 15, 2009 - March 15, 2011)
                                        Goal                                     Reported Results
 Objective
                                        (thru Sept. 15, 2011)                    (thru March 15, 2011)
 Provide CFW opportunities
 Number of beneficiaries                77,812                                   77,497
 Project activity spending (salaries    $37.7 million                            $28 million
 and cost of materials)
 Days worked                            2.9 million                              2.2 million
 Project category results               The modification mentions seven          Appendix II, Table II provides
                                        project categories where work            details on project results by
                                        should be targeted. Unlike phase         project category for the one year
                                        one of the coooperative agreement,       period from March 16, 2010
                                        project category goals are not listed    through March 15, 2011.
                                        such as number of beneficiaries,
                                        wages disbursed, days worked, or
                                        construction/production targets
                                        stated in kilometers, number of
                                        hectares, trees planted, etc.
 Increase involvement of women in short term income generating activities
 Number of beneficiaries who are        11,079 (target not updated for           13,511
 female                                 phase two)
 No specific sub-tasks or               As stated.                               Not applicable.
 deliverables beyond general
 expectation that CARE continue to
 work towards ensuring the
 participation of woman in project
 activities.
 Improve the understanding of the causes and effects of food insecurity and the impact of project activities
 on food prices.
 Conduct assesment to verify the        As stated.                               CARE commissioned a third-party
 appropriatenes of proposed cash                                                 assessment of its program.
 for work interventions                                                          Building on the results of the
                                                                                 earlier CSI studies, this December
                                                                                 2010 “livelihood analysis” study
                                                                                 provides a more in-depth review
                                                                                 of the impact of CARE’s cash for
                                                                                 work projects.
 Conduct market analysis to             As stated.                               Assessment not conducted.
 understand the impact of project
 intervention on food prices in the
 market
 Coordinate and collaborate with stakeholders.
 No specific sub-tasks or               As stated.                               Not applicable.
 deliverables beyond general
 expectations that CARE would
 continue to coordinate with
 relevant Afghan ministries.
                                                                            th
 Source: Cooperative agreement modification dated March 7, 2010 and CARE’s 8 quarterly report to USAID
 (December 16, 2010 to March 15, 2011).

SIGAR Audit-11-11 Contract Audit of Community Development Program                                            Page 10
Under phase one and phase two of the cooperative agreement, CARE internally allocated nearly
$3 million dollars to support improved understanding of the causes and effects of food insecurity in
urban areas. Some portions of these funds would be associated with the costs of producing the studies
that CARE has not conducted, leading to a potential for cost recovery.

Progress Toward Longer Term Goals Was Not Tracked

USAID regulations state that USAID missions and offices and their agreement officer teams are
responsible for measuring progress towards achieving intended program results. 12 According to the
head of USAID office of stabilization programs in Kabul, the mission is broadly seeking to move cash-for-
work programs from a focus on immediate distribution of cash to serve an urgent humanitarian
purpose, such as food relief, to a new focus which includes long term economic impact; local ownership
for completed projects; capacity development on the part of Afghan government entities; and increasing
Afghan government responsiveness, accountability, and transparency to its people. 13 However, USAID
failed to incorporate these broader goals into the CDP-K agreement even though a shift in program
focus had occurred. 14 As a result, CARE and A. F. Ferguson’s reports to USAID do not explicitly address
progress towards CDP-K’s newer objectives.

USAID officials stated that phase two of the CDP-K included the following goals: (1) funding sustainable
projects with long-term economic impact; (2) increasing the Afghan government’s ownership,
management capacity, and support for completed projects; and (3) discouraging the flow of poorer
workers from Kabul’s rural suburbs to its urban center. 15 However, USAID’s program description and
the issued modification for phase two only address the second goal. The modification for phase two of
the program does not address funding projects which lead to long-term economic impact and which
discourage the flow of workers from rural to urban centers. Furthermore, the modification does not
require that CARE or A.F. Ferguson develop and report on related performance indicators and targets for
any of these goals. Without defining program goals or tracking a program’s impact, there is a potential
for missed development opportunities and broader goals not being achieved.

While these broader program objectives are not fully incorporated in the modified cooperative
agreement, CARE has begun to shift some resources from non-sustainable projects providing low
economic impact, such as canal cleaning efforts, to more sustainable projects providing an economic
benefit to the entire community, such as the construction of permanent culverts to divert flood water,
which can cause serious damage to a community’s economic infrastructure.

CARE has recognized the need to refine and improve the program’s long-term impact. In October 2010,
CARE established a new unit called the Learning and New Initiatives Unit, which is examining a number
of potential steps the program could take to heighten its long-term impact in such key areas as
economic and infrastructure development. The unit proposes to assess lessons learned from the
program to apply to current and future program activities.

12
     See ADS Chapter 203, Section 3.2.1, the Performance and Management Process.
13
  The stabilization unit head noted that a draft paper has been prepared for distribution and comment within the
embassy community which defines this new direction. His hope is that once fully vetted, this paper will be issued
as mission policy directive.
14
  USAID officials noted, that while the program continued to have a significant cash-for-work focus, USAID and
CARE officials agreed that the types of projects built with program funds should be expanded to include longer-
term, sustainable projects that benefit entire communities and not just the cash-for-work beneficiaries.
15
  The addition of these items is reflected in the program’s name change from a food insecurity response program
to a community development program.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                         Page 11
A senior A.F. Ferguson official agreed that the program’s goals have expanded to include the goals
described above, but the project’s economic impact and sustainability are questionable. The same
official noted that careful project planning and monitoring is required to achieve these goals. However,
A.F. Ferguson does not track or report on progress towards these broader objectives. The same official
suggested that one key reason USAID did not take the time to develop an expanded performance
framework for the CDP-K program and incorporate such a framework in the cooperative agreement and
related reporting expectations, is that the agency staff are pre-occupied with the task of disbursing large
quantities of funds within short periods of time and this can leave program staff with little time for
conceptual thinking on how best to define and track broader program objectives.


CDP-K IS SUBJECT TO MULTIPLE LAYERS OF MONITORING AND EVALUATION; SOME
IRREGULARITIES WERE NOTED IN THE CASH DISBURSEMENT PROCESS

CARE and A.F. Ferguson provide some level of assurance to USAID that program funds have not been
inappropriately disbursed. These efforts include a system of internal controls, which are overseen by a
40-person Development, Monitoring, and Evaluation Unit, developed by CARE to provide on-going
monitoring of cash disbursements. Our assessment of the controls over cash disbursements at selected
project sites revealed that they were operating as intended and were generally adequately documented,
although we found limited procedural deficiencies. In addition, as of March 2011, CARE had not yet
resolved five observations that A.F. Ferguson reported on related to the cash disbursement process.

CARE Developed a Series of Internal Control Procedures over Cash Disbursements

CARE has developed a system of internal control procedures for the CDP-K program to ensure that cash
disbursements are distributed to eligible participants. In particular, CARE’s monitoring and evaluation
unit reviews the cash disbursement process. Figure 1 describes the internal control cycle for the CDP-K
program. Key elements of the cash disbursement and oversight process include:

    •   Cash distribution committee. Cash disbursements must be independently witnessed by at least
        four individuals: CARE’s monitoring officer, an Afghan community council member, the
        program’s cashier, and a laborer representative.
    •   Photo identification. Beneficiaries are issued photo identification cards, which they must bring
        to the job site for identification. The card is punched to reflect every time they get paid–for a
        maximum of 4 times, which equals 40 days of employment under the CDP-K policy.
    •   Time and attendance verification. CARE monitoring officers review a number of required forms,
        including time and attendance sheets, for completeness and accuracy. CARE officers verify the
        number of days worked by each laborer and ensure that the time sheets are prepared by the
        field officer/engineer and verified by appropriate supervisory staff.

    •   Project files. CARE maintains records that include verified time sheets for each employed
        beneficiary, punched and canceled photo identification cards, and associated project tracking
        and monitoring forms for each completed project.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                  Page 12
Figure 1: CDP-K Internal Control Cycle




Source: SIGAR analysis of CARE data.

Each monitoring officer prepares weekly reports highlighting any problems or concerns that he or she
encounters. CARE’s management, in turn, provides USAID with quarterly reports summarizing its
monitoring activities and findings. Our review of quarterly reports filed since June 2009 found only two
substantive instances of reported problems. In both cases, CARE took corrective actions and no U.S.
reconstruction funds were lost. 16

Our field visits to two CDP-K project sites and review of selected files and discussions with CARE officials
revealed that CARE staff generally followed the control procedures over cash disbursements. 17
Although we identified some deviations from established procedures, these exceptions did not

16
  Only two instances of reported problems with CARE’s cash disbursement process have been reported. In both
cases, corrective action was taken and new procedures were implemented. No funds were lost as a result of the
incidents. In March 2009, a cashier absconded with the equivalent of over $22,000 of project funds that were to be
paid out as wages. After contacting the cashier’s father, however, all the funds were returned and CARE changed
the distribution process so that money dealers are now required to bring the cash to the disbursement site where
the funds are received by a disbursement committee, signed for, and then disbursed. A second incident in
February 2009, involved beneficiaries who were receiving cash wages without proper identification. CARE monitors
discovered the irregularity and, as a result, three staff members were fired for not following proper procedures.
17
  We visited two different project sites in separate districts and witnessed the cash disbursement system. We also
reviewed 3 months of forms and reports filed by CARE’s monitoring and evaluation staff for all projects in these
two districts.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                          Page 13
compromise the basic integrity of CARE’s cash disbursement process, which is centered on the photo
identification cards, verified time sheets, and a cash distribution committee. We found that, in some
cases, the beneficiaries lacked national identification cards, some attendance sheets were missing
skilled laborer’s contract numbers, and some attendance sheets contained smudged fingerprints used to
acknowledge worker payment. 18 In addition, certain files lacked complete documentation such as
cancelled checks, authorization letters to the cash distribution committee to receive money from the
money dealer, and copies of CARE’s cash ledgers. CARE has indicated that it has taken action to address
most of these discrepancies, including providing better training for record keeping. With regards to the
issue of smudged fingerprints, CARE officials agreed that greater care should be taken when recording
fingerprints and that attendance forms would likely need to be re-designed to provide enough space to
record a fingerprint.

Third-Party Contractor Assesses Cash Disbursement Process for CDP-K

A.F. Ferguson monitoring and evaluation staff complete a monitoring form for each observed cash-for-
work activity, which forms the basis for monthly and quarterly reports filed with USAID’s AOTR. The
monthly reports cover day-to-day implementation efficiencies and deficiencies, and quarterly reports
cover the overall monitoring results. A.F. Ferguson’s monthly reports describe specific program
challenges and problems, including any problems noted with regards to the cash disbursement process.
These challenges and problems are reported to CARE for resolution. USAID’s AOTR receives a complete
list of all open and closed observations and monitors CARE’s written response to each open challenge as
identified by A.F. Ferguson staff. A senior A.F. Ferguson official noted that, overall, CARE’s internal
controls system provides a reasonable level of assurance that project funds are only distributed to
eligible beneficiaries. The same official added, however, that certain irregularities have been noted with
regards to CARE’s implementation of its internal controls. These irregularities are reported to CARE on a
monthly basis and a process exists to track and resolve A.F. Ferguson’s findings and observations, as
discussed below.

In March 2011, at the termination of its contract, A.F. Ferguson submitted its final report to USAID. In its
report, A.F. Ferguson summarized 51 observations that it had made to USAID throughout the course of
their monitoring and evaluation activities of CDP-K. As of March 2011, there were 21 unresolved
observations. Of these, five related to the cash disbursement process. 19 The following are examples of
the unresolved observations relating to the cash disbursement process:

     •   A beneficiary on one sub-project did not have a photo on his CARE-issued identification card and
         his national identification number was not listed on the card.
     •   Cash was partly disbursed in the absence of one member of the cash distribution committee on
         one sub-project.



18
  CARE officials noted that fingerprints are used in lieu of signatures to acknowledge receipt of payment but not as
evidence that only qualified individuals receive payment. They noted that each worker is issued a unique photo
identification which provides proof of identity. This photo identification must be shown to cash disbursement
committee members at the time of payment. This photo identification is punched at each payment and taken from
the worker at the conclusion of their authorized work period. The “canceled” photo identification becomes a part
of CARE’s documented records for each project.
19
  In addition to the cash disbursement process, A.F. Ferguson reported to USAID on other observations, including
coordination with stakeholders and CARE and CDP-K’s organizational structures. For the purposes of this audit, we
focused on the cash disbursement process given the potential risks of fraud, waste, and abuse.
SIGAR Audit-11-11 Contract Audit of Community Development Program                                          Page 14
    •   Cash disbursement was not carried out in accordance with the cash disbursement policy since
        the money was not brought by the money dealer to the site, instead it was brought to the site
        by the cashier from the head office.

USAID is pressing for corrective actions in all cases of unresolved observations, but some will remain
open due to the nature of the finding, according to program officials. For example, according to USAID
officials, up to 30 percent of Afghans do not have a Tazkira (identification) card and it would be
unreasonable to expect CARE to resolve this issue on its own. USAID officials acknowledged the
importance of ensuring that all CARE staff adhere to all internal controls over cash disbursements to
mitigate the potential risk of distributing funds inappropriately.


CONCLUSION

Cash-for-work projects involve inherent risks of fraud, waste, and abuse. In planning CDP-K, USAID
officials acknowledged these risks and required a multi-layered system of internal controls over the cash
disbursement process. USAID planned to be substantially involved in the oversight of this cash-for-work
program and, therefore, chose to award a cooperative agreement to CARE International, rather than a
grant. In accordance with the program design and terms of the cooperative agreement, CARE
established a monitoring and evaluation unit to track and measure outputs and outcomes of the CDP-K
project. In addition, USAID contracted with a third-party organization to help monitor and evaluate
implementation of the CDPs across Afghanistan, including monitoring and reporting on CARE’s systems
and controls in place to prevent fraud and abuse. CARE has largely met the schedule, cost, and outcome
requirements of the cooperative agreement under both phases with two notable exceptions. First,
CARE failed to conduct certain required studies under both phases which were included in the cost of
the agreement. Second, with the expansion of the program in March 2010 to longer-term, sustainable
projects, USAID did not define specific objectives and performance metrics to gauge CARE’s progress
toward achieving these broader goals. USAID’s failure to require that CARE identify, track, and report its
progress toward achieving these expanded program goals raises the risk that these funds will be spent
on activities or projects that do not promote long-term economic development or advance U.S. strategic
interests. Although CARE has established a system of internal controls to mitigate risks over the cash
disbursement process, USAID’s third party monitoring and evaluation contractor noted certain
procedural shortcomings that CARE had not fully addressed. Without consistent implementation of
internal controls over the cash disbursement process, USAID and CARE increase the risks of fraud, waste,
and abuse of these funds.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                 Page 15
RECOMMENDATIONS

To ensure that the program’s broader objectives are achieved and appropriate oversight of program
funds is provided, SIGAR recommends that the USAID Mission Director require that:

    1. USAID and CARE program staff document the specific nature and definition of CDP-K’s expanded
       project goals for this and any potential follow-on awards;
    2. CARE address to what degree these goals were met when it submits its close-out report to
       USAID later this year, along with any lessons learned with regards to why, if applicable, certain
       long-term goals were not met;
    3. USAID and CARE determine to what degree, if any, CARE should reimburse USAID for the costs
       associated with required studies that were not completed; and,
    4. USAID and CARE reconcile remaining internal control issues identified by A.F. Ferguson as soon
       as possible.


COMMENTS

USAID provided written comments on a draft of this report, which are included in appendix III. USAID
concurred with all four of our recommendations. Regarding recommendations one and two, , USAID
noted it will work with CARE program staff to document the specific expanded project goals under
phase 2 of the cooperative agreement and ensure that related lessons learned and recommendations
for further activities are included in CARE’s project close-out report. Regarding recommendation three,
USAID stated it will determine to what degree, if any, CARE should reimburse USAID for the costs
associated with required studies that were not completed. Regarding recommendation four, USAID
noted it will work closely with CARE to review internal control procedures over cash disbursements and
promptly rectify any remaining internal control issues.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                 Page 16
APPENDIX I: SCOPE AND METHODOLOGY

This report discusses the results of an Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of a cooperative agreement between the U.S. Agency for International
Development (USAID) and CARE International to provide food assistance relief using cash-for-work
opportunities to qualified beneficiaries through the Community Development Program-Kabul (CDP-K).
This report assesses (1) the processes and procedures USAID followed to award this cooperative
agreement; (2) whether it is being implemented within the schedule, cost, and outcome terms of the
agreement; and (3) the implementation of internal controls over cash disbursements.

To examine the processes and procedures USAID followed to award this cooperative agreement, we
reviewed the award file, the cooperative agreement, its modifications, and supporting documents. We
also reviewed USAID regulations and guidance and relevant statutory provisions, including USAID’s
Automated Directives System. In addition, we analyzed policies associated with acquisitions and award
decisions in Afghanistan. We interviewed officials from USAID, CARE, and an independent contractor,
A.F. Ferguson, a private accounting firm hired by USAID to provide additional monitoring and evaluation
of the program.

To determine whether the cooperative agreement is being implemented within the cost, schedule, and
outcome terms of the agreement, we examined the cooperative agreement, its modifications, and
related documents. We reviewed progress reports and related monitoring and evaluation documents
from CARE and A.F. Ferguson.

To assess the internal controls over the cash disbursement process, we visited two different project sites
in two different districts and observed the cash disbursement system to determine if the process was
functioning as intended. We also reviewed 3 months of forms and reports filed by monitoring and
evaluation staff for all projects in these two districts. We also reviewed all quarterly and monthly
reports, issued by CARE and A. F. Ferguson, respectively. Lastly, we interviewed USAID, CARE, and
A.F. Ferguson officials.

To assess the reliability of data reported by CARE, we reviewed the results of a data reliability
assessment conducted in April 2010, by a consulting firm hired by USAID which found that the
performance data provided by CARE was sufficient and could be relied on to assess program results.

We conducted work in the city of Kabul and its suburbs from August 2010 to May 2011 in accordance
with generally accepted government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient and appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This performance audit
was conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under the
authority of Public Law No. 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Reform Act of 2008.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                 Page 17
APPENDIX II: PROJECT RESULTS THROUGH THE END OF PHASE ONE AND PHASE TWO

Tables I and II provide CARE reported results for phase one and two of the cooperative agreement by
category of project.


 Table I: CARE Reported Results by Project Category for Phase One
 (March 15, 2009 to March 15, 2010)
 Project Category                                                                         Results
 Road side ditch excavation                                                               95.3 kilometers
 Road side drain construction                                                             53.9 meters
 Road surfacing and graveling                                                             143.2 kilometers
 Canal cleaning                                                                           1015 kilometers
 Number of vines tended                                                                   5.4 million
 Number of trees planted                                                                  6 thousand
 Orchard plowing                                                                          316 hectares
 Park rehabilitation                                                                      43.7 thousand square meters
 Boundary wall construction                                                               4.4 kilometers
 Culverts construction                                                                    3.6 kilometers
 Water wells dug                                                                          126 wells
 Kabul River cleaning                                                                     28.3 kilometers
                  th
 Source: CARE’s 4 quarterly & end of year 1 report to USAID (March 15, 2009-March 15, 2010).




 Table II: CARE Reported Results by Project Category for Phase Two
 (March 16, 2010 to March 15, 2011)
 Project Category                                                                         Results
 Road side ditches excavation                                                             4.3 kilometers
 Road side ditch construction                                                             49.0 meters
 Road surfacing and graveling                                                             108.0 kilometers
 Number of trees planted                                                                  113.2 thousand
 Park rehabilitation                                                                      11.3 thousand square meters
 Boundary wall construction                                                               1.9 kilometers
 Culverts construction                                                                    13.2 kilometers
 Irrigation systems                                                                       23.6 kilometers
 Tree nurseries                                                                           7 nuseries
                  th
 Source: CARE’s 8 quarterly report to USAID (Dec. 16, 2010 to March 15, 2011).
      a
 Note: Certain project categories, such as canal cleaning, were dropped in phase two to place greater emphasis on projects
 with longer-term impact.




SIGAR Audit-11-11 Contract Audit of Community Development Program                                                  Page 18
APPENDIX III: COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT




SIGAR Audit-11-11 Contract Audit of Community Development Program       Page 19
SIGAR Audit-11-11 Contract Audit of Community Development Program   Page 20
SIGAR Audit-11-11 Contract Audit of Community Development Program   Page 21
SIGAR Audit-11-11 Contract Audit of Community Development Program   Page 22
                 (This report was conducted under the audit project code SIGAR-029A).




SIGAR Audit-11-11 Contract Audit of Community Development Program                       Page 23
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction (SIGAR) is to enhance
                              oversight of programs for the reconstruction of
                              Afghanistan by conducting independent and objective
                              audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to
                              provide accurate and balanced information, evaluations,
                              analysis, and recommendations to help the U.S. Congress,
                              U.S. agencies, and other decision-makers to make
                              informed oversight, policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
